FOR IMMEDIATE RELEASE                                                                        AT
TUESDAY, JANUARY 13, 2004                                                   (202) (202) 514-2007
WWW.USDOJ.GOV                                                               TDD (202) 514-1888

     FOUR WISCONSIN ROAD CONSTRUCTION EXECUTIVES ARRESTED ON
                BID RIGGING AND WIRE FRAUD CHARGES

       Road Construction Projects Worth More than $100 Million to State of Wisconsin

       WASHINGTON, D.C.-- Four Wisconsin road construction executives were arrested

today on bid rigging and wire fraud charges for participating in a conspiracy involving projects

let by the State of Wisconsin’s Department of Transportation (WisDOT) and others, the

Department of Justice announced. The road construction projects, which included public road,

highway, bridge, street, and airport construction projects, were worth more than $100 million to

the State of Wisconsin.

       According to the criminal complaints and affidavit filed yesterday in the U.S. District

Court in Green Bay, Wisconsin, and unsealed today, James J. Maples, President of Vinton

Construction Company of Manitowoc, Wisconsin; Michael J. Maples, Vice President of Vinton;

Ernest J. Streu, President of Streu Construction Company of Two Rivers, Wisconsin; and John

Streu, Secretary/Treasurer of Streu, rigged bids submitted to WisDOT and others from as early

as 1997 until the present. James and Michael Maples reside in Manitowoc and Ernest and John

Streu reside in Two Rivers.

       The investigation is being conducted jointly by the Department’s Antitrust Division, the

U.S. Attorney’s Office for the Eastern District of Wisconsin, the Federal Bureau of Investigation,

and the U.S. Department of Transportation, Office of Inspector General.
       “The criminal complaints allege an ongoing conspiracy to rig numerous state road

construction contracts,” said United States Attorney Steven Biskupic of the Eastern District of

Wisconsin.

       The Department alleges that in telephone calls and in-person meetings, James and

Michael Maples and E.J. and John Streu, and others shared bid information, discussed potential

competitors and agreed to rig bids in an attempt to allocate projects among themselves. The

Department also alleges that the conspirators submitted rigged bids in electronic format through

interstate wire communications from the Eastern District of Wisconsin to Florida. The majority

of these projects were also federally funded. According to the complaint, as part of the alleged

conspiracy and wire fraud scheme, the defendants had agreed to rig bids with respect to the

following projects which were to be let today by WisDOT:

             Project    Description


                1       U.S. Highway 51 / I-39 – Columbia & Marquette Counties


                14      U.S. Highway 151 – Fond du Lac County


                25      State Highway 42 – City of Algoma / Kewaunee County


                28      Custer Street – City of Manitowoc
                                              -3-


“Detecting and preventing contract and grant fraud in highway and transit infrastructure

projects is one of the top management challenges facing the U.S. Department of

Transportation,” said Kenneth M. Mead, the Department of Transportation’s Inspector

General.

The charges, if proven, would constitute violations of Section One of the Sherman Act,

which carries a maximum penalty for individuals of three years in prison and a fine of

$350,000, and 18 U.S.C. § 1343, which carries a maximum penalty for individuals of 20

years in prison and a fine of $250,000. The maximum fines may be increased to twice

the gain derived from the crime or twice the loss suffered by the victims of the crime if

either of those amounts is greater than the statutory maximum fine.

Anyone with information concerning price fixing or other anticompetitive conduct in the

road construction industry should contact the Midwest Field Office of the Antitrust

Division at 312-353-7530.

The public is cautioned that a criminal complaint is merely a formal method of filing

charges against an individual and does not constitute an inference of his or her guilt. An

individual is presumed innocent until such time, if ever, that the government establishes

his or her guilt beyond a reasonable doubt.

                                              ###

04-013
